No. 20-1163
IN THE

Supreme Court of the United States

d

GLOUCESTER COUNTY SCHOOL BOARD ,
Petitioner,

—v.—

GAVIN GRIMM ,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

BRIEF IN OPPOSITION

Eden Heilman
AMERICAN CIVIL LIBERTIES
UNION OF VIRGINIA
FOUNDATION , INC .
701 E. Franklin Street,
Suite 1412
Richmond, VA 23219

Joshua A. Block
Counsel of Record
Chase B. Strangio
Leslie Cooper
James D. Esseks
Louise Melling
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2593
jblock@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

QUESTION PRESENTED
Whether a school board policy prohibiting a
transgender boy from using the same multi-user
school restrooms as other boys violates Title IX of the
Education Amendments of 1972, 20 U.S.C. § 1681, et
seq., or the Equal Protection Clause of the Fourteenth
Amendment, when the evidence shows that the policy
subjects that student to separate and unequal
treatment.

i

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE .................................... 2
REASONS FOR DENYING THE PETITION ......... 22
I. THERE IS NO SPLIT IN THE CIRCUITS ........ 22
II. THE DECISION BELOW IS CORRECT ........... 22
A. Under Title IX, Sex-Specific Restroom
Policies May Not Be Applied in Ways
that Discriminate Against Transgender
Students ......................................................... 24
1.

Title IX prohibits discrimination
based on transgender status.................. 24

2.

Schools may not discriminate in
the provision of sex-separated
restrooms ................................................ 26

3.

The Board’s restroom policy
subjected Gavin to discrimination ......... 27

B. Subjecting Transgender Students to Separate
and Unequal Treatment in the Use of
Restrooms Violates the Equal Protection
Clause ............................................................. 30
CONCLUSION.......................................................... 33
APPENDIX
Declaration of Gavin Grimm (Mar. 19, 2019) ....... 1a
Declaration of Deirdre Grimm (Mar. 21, 2019) .. 18a

ii

TABLE OF AUTHORITIES
CASES
Adams ex rel. Kasper v. Sch. Bd. of St. Johns County,
968 F.3d 1286 (11th Cir. 2020) ....................... 22, 29
Auer v. Robbins, 519 U.S. 452 (1997) ....................... 23
Bostock v. Clayton County., Georgia,
140 S. Ct. 1731 (2020) ............................... 19, 25, 26
Burlington N. & Santa Fe Ry. Co. v. White,
548 U.S. 53 (2006) ............................... 24, 26, 28, 29
City of Cleburne, Tex. v. Cleburne Living Ctr.,
473 U.S. 432 (1985) ......................................... 29, 32
Comcast Corp. v. Nat’l Ass’n of Afr. Am.-Owned
Media, 140 S. Ct. 1009 (2020) ............................... 25
Davis ex rel. LaShonda D. v. Monroe Cty. Bd. of
Educ., 526 U.S. 629 (1999).................................... 24
Dodds v. U.S. Dep’t of Educ.,
845 F.3d 217 (6th Cir. 2016) ........................... 23, 29
Doe ex rel. Doe v. Boyertown Area Sch. Dist.,
897 F.3d 518 (3rd Cir. 2018) ........................... 23, 33
G.G. v. Gloucester Cty. Sch. Bd.,
822 F.3d 709 (4th Cir. 2016) ................................. 23
Grimm v. Gloucester Cty. Sch. Bd.,
869 F.3d 286 (4th Cir. 2017) ................................. 17
Jackson v. Birmingham Bd. of Educ.,
544 U.S. 167 (2005) ......................................... 24, 26
Lawrence v. Texas,
539 U.S. 558 (2003) ............................................... 32

iii

McLaurin v. Okla. State Regents for Higher Educ.,
339 U.S. 637 (1950) ............................................... 32
Oncale v. Sundowner Offshore Servs., Inc.,
523 U.S. 75 (1998) ................................................. 28
Parents for Priv. v. Barr,
949 F.3d 1210 (9th Cir. 2020) ............................... 23
Texas v. United States,
201 F. Supp. 3d 810 (N.D. Tex. 2016) ................... 23
United States v. Virginia,
518 U.S. 515 (1996) ......................................... 30, 31
Whitaker ex rel. Whitaker v. Kenosha Unified Sch.
Dist. No. 1 Bd. of Educ., 858 F.3d 1034 (7th Cir.
2017) ................................................................ 22, 29
STATUTES
20 U.S.C. § 1681(a) ............................................ passim
20 U.S.C. § 1686 ........................................................ 27
42 U.S.C. § 2000e–2(a)(1) ......................................... 25
REGULATIONS
34 C.F.R. § 106.32 ..................................................... 27
34 C.F.R. § 106.33 ............................................... 26, 27
40 Fed. Reg. 24127, 24141 (June 4, 1975) ............... 27

iv

INTRODUCTION
When the events giving rise to this case
unfolded, Gavin Grimm was a transgender teenage
boy at Gloucester High School. He lived as a boy and
was treated as male in all aspects of his daily life. He
changed his legal name to Gavin. He updated the
gender marker on his I.D. card from the Virginia
Department of Motor Vehicles to reflect that he is
male. He received testosterone hormone therapy. He
underwent chest reconstruction surgery. And he
ultimately received a Virginia court order and birth
certificate further recognizing him as male.
Outside of school, Gavin used the men’s
restrooms at all public venues. After meeting with
school administrators and receiving their permission,
Gavin did the same at Gloucester High School. He
used the boys’ restrooms without incident until the
Gloucester County School Board (the “Board”)
overruled its own administrators and passed a new
policy barring Gavin from the boys’ restroom because
he is transgender. The Board’s new policy prohibited
any student “with gender identity issues” from using
any restrooms consistent with their gender identity
under any circumstances. Pet. App. 33a. The policy
directed Gavin to an “alternative” single-user facility
instead. Id.
Title IX regulations permit separate restrooms
for boys and girls, but the Board’s new policy was
different. By treating Gavin differently from other
boys and forcing him to use separate single-stall
facilities because he is transgender, the Board’s policy
singled out Gavin and stigmatized him as unfit to use
the same restrooms as his peers. To avoid the daily

1

humiliation of the policy, Gavin avoided using any
restroom, leading to unbearable stress, painful
urinary-tract infections, and ultimately Gavin’s
hospitalization for suicidal thoughts.
After reviewing a comprehensive summaryjudgment record detailing the harm the Board’s policy
inflicted on Gavin, the district court held—and the
Fourth Circuit agreed—that the Board’s policy
subjected Gavin to discriminatory treatment in
violation of Title IX of the Education Amendments of
1972, 20 U.S.C. § 1681(a), and the Equal Protection
Clause. Pet. App. 12a-118a. The Seventh and
Eleventh Circuits have reached the same conclusion
in cases involving similar exclusions. See Whitaker ex
rel. Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd.
of Educ., 858 F.3d 1034 (7th Cir. 2017); Adams ex rel.
Kasper v. Sch. Bd. of St. Johns Cty., 968 F.3d 1286
(11th Cir. 2020), petition for reh’g en banc filed, Aug.
28, 2020. No circuit has ruled to the contrary.
The Board now petitions for a writ of certiorari
but fails to offer a compelling reason for this Court’s
review. There is no circuit split for this Court to
address, and the courts below resolved the legal
questions correctly. The petition for a writ of certiorari
should be denied.
STATEMENT OF THE CASE
This case comes to the Court following a grant
of summary judgment. The facts as set forth below are
undisputed.1
Throughout its petition, the Board makes unsupported
assertions about its own motives and about how its restroom
policy operated in practice. But the Board fails to identify any
1

2

A.

Gavin’s Transition.

From a young age, Gavin knew he was a boy but
lacked the vocabulary to explain it. App., infra, 1a-3a.
Gavin eventually learned the term “transgender” and
realized that there was a word for the way he had felt
all his life. Id. at 3a.2
Gender identity is the medical term for a
person’s deeply felt, inherent sense of belonging to a
particular gender. Pet. App. 21a. Most people have a
gender identity that matches the sex they were
designated at birth. Id. But people who are
transgender have a gender identity that differs from
their birth-designated sex. Id. at 21a-22a. Boys and
girls who are transgender are people who consistently,
persistently, and insistently have an identity that
differs from the sex assigned to them at birth. Id.
By ninth grade, most of Gavin’s friends knew he
was a boy, and Gavin lived openly as a boy when
socializing away from home and school. App., infra,
4a. But with the onset of puberty, Gavin began to
suffer debilitating levels of distress. Id. at 4a-5a. In
April 2014, Gavin came out to his parents as a boy. Id.
at 5a-6a, 19a. At Gavin’s request, he began seeing a
psychologist with experience treating transgender
youth. Id. at 6a, 19a. She diagnosed Gavin with
testimony or other “particular parts of materials in the record”
supporting those representations. Fed. R. Civ. P. 56(c)(1)(A).
The Board refers to Gavin and other transgender students as
having a “self-determined” gender identity. Pet. 20. As discussed
below, Gavin’s identity as a boy is reflected in his medical
records, his state I.D. card, his amended birth certificate, and a
court order changing Gavin’s designated sex under Virginia law.
Pet. App. 37a.
2

3

gender dysphoria, a diagnostic term for individuals
with a gender identity that differs from their sex
assigned at birth who experience clinically significant
distress as a result of the incongruence. Pet. App. 30a31a.
The standard of care for treating gender
dysphoria recognized by the American Academy of
Pediatrics and every major medical and mental health
professional organization in the United States is to
reduce the clinically significant distress by affirming
boys who are transgender as boys and girls who are
transgender as girls. Pet. App. 24a-26a. Under current
standards of care, transgender adolescents may
receive puberty-blocking medication and hormone
therapy if a qualified mental health professional
confirms certain diagnostic criteria, including a longlasting and intense pattern of gender dysphoria that
worsened with the onset of puberty. C.A. App. 177-78.
Transgender teenagers may receive medically
necessary chest reconstructive surgery, typically after
they turn sixteen, and genital surgery once they reach
the age of majority. Id. at 179.
With his medical providers’ help, Gavin lived in
accordance with his male identity as part of his
treatment for gender dysphoria. App., infra, 6a. He
changed his legal name to Gavin and began using
male pronouns. Id. He used the men’s restrooms in
public venues without encountering any problems. Id.
at 6a, 9a. His psychologist also referred Gavin to an
endocrinologist for hormone therapy. Pet. App. 31a.
According to his mother, Gavin’s demeanor
changed noticeably when he transitioned and started
to live authentically as a boy. App., infra, 18a. Once
affirmed as a boy, Gavin became more comfortable

4

with himself and was no longer the “shy and anxious
kid” that he had been before being treated for gender
dysphoria. Id.
B.

School Administrators Respond to Gavin’s
Transition.

In August 2014, before beginning his
sophomore year, Gavin and his mother met with a
school guidance counselor to explain that Gavin would
be attending school as a boy. Pet. App. 31a. They also
gave the guidance counselor a treatment
documentation letter from Gavin’s psychologist,
which stated that Gavin was receiving treatment for
gender dysphoria and should be treated as a boy in all
respects. Id.
The counselor assured Gavin that his teachers
and school staff would call him Gavin and address him
with male pronouns. App., infra, 7a. Gavin agreed
that he would use the restroom in the nurse’s office for
the time being. Id.3
Once school started, however, Gavin began to
feel it was “stigmatizing to use a separate restroom”
and felt “anxiety and shame” from having to travel to
a different restroom from everyone else. App., infra,
7a-8a. The restroom in the nurse’s office was also far
from his classes, and Gavin was often unable to use
that restroom without being late. Id. On one occasion
Gavin’s teacher “made a big public point” about how
The Board falsely asserts that Gavin’s mother suggested that
Gavin use a single-user restroom in the nurse’s office. Pet. 6. The
Board’s only citation for that assertion is an erroneous statement
from Judge Niemeyer’s dissent from an earlier stage of this case.
Pet. App. 209a. The summary judgment record does not provide
any support for that assertion.
3

5

long it took him to use the restroom, humiliating
Gavin in front of his peers. Id. at 8a. Other times,
students would make snide remarks. Id.
After a few weeks, Gavin asked permission to
use the boys’ restrooms. App., infra, 8a. Principal Nate
Collins consulted with the director of school
counseling, who recommended that Gavin be allowed
to use the boys’ restrooms and said it would be in
Gavin’s best interest to do so. C.A. App. 369-70, 761.
Collins also spoke about Gavin’s request with
Superintendent Walter Clemons, who said he would
support whatever decision Collins made. C.A. App.
410-11. Clemons believed Collins to be a good
principal and trusted Collins to handle day-to-day
concerns at school. Id. at 409.
After meeting with Gavin, Principal Collins
decided that allowing Gavin to use the same
restrooms as other boys would be in his best interest.
C.A. App. 373. Collins believed in cultivating a
welcoming environment for all students because
“students learn best when they feel safe and secure
and comfortable in their environment.” Id. at 364. He
informed Gavin and his mother that Gavin could use
the boys’ restrooms beginning on October 20, 2014,
and he documented the decision in a memo. Id. at 758.
Collins did not address whether transgender
students could also use the locker rooms associated
with their gender identity. His decision was “focused
on the restroom specifically.” C.A. App. 374.
C.

The School Board Meetings.

Gavin used the boys’ restrooms for seven weeks
without incident. Over that period of time, Gavin had
only one conversation in the restroom with another

6

student. The student asked Gavin if he liked the boy’s
socks. (Gavin said he did.) App., infra, 35a.
Although Gavin never encountered any
problems while using the restroom, some adults in the
community
contacted
Principal
Collins,
Superintendent Clemons, and members of the Board
to demand that “the transgender student” be barred
from the boys’ restrooms. Pet. App. 123a. None of the
complaints cited any instance in which someone was
in the restroom when Gavin was present and felt that
their privacy had been violated. C.A. App. 160-69, 456.
Only one student personally complained to Principal
Collins. That student never used the restroom at the
same time as Gavin, and he spoke with Principal
Collins before the restroom privacy improvements
discussed below. Pet. App. 32a.4
Superintendent Clemons contacted the Board
on October 22, 2014, and told them he wanted to
discuss “a transgender issue” in closed session. C.A.
App. 759. At the closed session, the Board decided not
to take any immediate action to overrule Principal
Collins. Id. at 762, 765. But two days before the
Board’s November 11, 2014 meeting, Board member
Carla Hook proposed the following policy:
Whereas the [Gloucester County Public
Schools (“GCPS”)] recognizes that some
students
question
their
gender
identities, and

The Board failed to introduce evidence that it received
complaints from any other student at the time. See C.A. App. 16069 (Board’s response to interrogatory identifying all complaints
it received).
4

7

Whereas the GCPS encourages such
students to seek support and advice from
parents, professionals and other trusted
adults, and
Whereas the GCPS seeks to provide a
safe learning environment for all
students and to protect the privacy of all
students, therefore
It shall be the practice of the GCPS to
provide male and female restroom and
locker room facilities in its schools, and
the use of said facilities shall be limited
to the corresponding biological genders,
and students with gender identity issues
shall be provided an alternative
appropriate private facility.
Pet. App. 32a-33a. Hook drafted the policy on her own
without consulting any medical professionals or other
experts. Id. at 82a.
No one informed Gavin about the complaints
received by the Board. App., infra, 9a-10a. Gavin and
his mother learned about the meeting less than 24
hours beforehand through a Facebook post urging
people to show up to oppose allowing “a girl to use the
boys’ restrooms.” Id. at 10a, 20a. Gavin and his
parents decided to attend the meeting and speak
against the proposed policy because Gavin did not
want to “sit on the sidelines” while other people had
“a conversation about [his] future.” Id. at 10a. Gavin
told the Board: “All I want to do is be a normal child
and use the restroom in peace.” School Board Meeting

8

(Dec. 9, 2014), at 25:47.5 “I did not ask to be this way,
and it’s one of the most difficult things anyone can
face.” Id. at 26:18. “I am just a human. I am just a
boy.” Id. at 27:13.
The Board deferred voting on the policy until its
meeting on December 9, 2014. Pet. App. 34a. Before
the next meeting, the Board issued a press release
announcing “plans to designate single-stall, unisex
restrooms … to give all students the option for even
greater privacy.” C.A. App. 770. The press release also
announced plans for “adding or expanding partitions
between urinals in male restrooms, and adding
privacy strips to the doors of stalls in all restrooms.”
Id. Photographs of the new stalls and partitions are
available at C.A. App. 1009-15.
Despite those additional privacy protections,
speakers at the December 9, 2014 Board meeting
demanded that Gavin be excluded from the boys’
restrooms immediately. Many threatened to vote
Board members out of office if they refused to pass the
new policy. Pet. App. 34a. One speaker called Gavin a
“freak” and compared him to a person who thinks he
is a “dog” and wants to urinate on fire hydrants. See
School Board Meeting (Dec. 9, 2014), at 1:22:15.6 “Put
him in a separate bathroom if that’s what it’s going to
take,” said another. Id. at 58:56.
The Board meetings made Gavin feel that he
had been turned into a “public spectacle” in front of

5

Available
at
1065?view_id=10.

http://gloucester.granicus.com/player/clip/

Available
at
1090?view_id=10.

http://gloucester.granicus.com/player/clip/

6

9

the entire community. App., infra, 10a. Gavin’s
mother remembers the school board meeting as “a
horror show.” Id. at 21a. She still recalls “how
appalled [she] felt for Gavin and how scared it made
[her] that he wouldn’t be able to struggle and live
through all of this.” Id.
The Board passed the policy by a 6-1 vote. Pet.
App. 35a. The following day, Principal Collins told
Gavin he could no longer use the boys’ restrooms and
would be punished if he did so. Id.
D.

The “Alternative” Facilities.

At one point after the Board adopted its policy
but before it had created new single-stall restrooms,
Gavin stayed after school for an extracurricular event.
Pet. App. 35a. When Gavin realized he had to use the
restroom and the nurse’s restroom was locked, he
broke down sobbing in the library. Id. at 35a-36a. A
librarian saw Gavin and drove him home so he could
use the restroom. Id. at 36a.
When the single-user restrooms were installed,
they were all far from Gavin’s classes. Pet. App. 36a.
Classrooms at Gloucester High School are located in
four different wings of the school: A Hall, B Hall, C
Hall, and D Hall. C.A. App. 969-70. Every hall has a
common boys’ restroom and a common girls’ restroom
for students to use near their classes. Id. at 969-71.
But there were no single-user restrooms in D Hall,
where Gavin attended most of his classes. Id. at 761,
970. One single-user restroom was in A Hall near the
nurse’s office. Id. at 388. The other two single-stall
restrooms were located near the cafeteria and were
converted from old locker rooms for the custodial staff.
Id. at 384. Photographs of one of the single-stall

10

restrooms near the cafeteria are reproduced at C.A.
App. 1016-20.
Although any student was allowed to use the
single-user restrooms, no one else was required to do
so, and Gavin never saw any other student use them.
Pet. App. 36a. Gavin felt that the separate restrooms
sent a message that he was not fit to be treated like
everyone else. App., infra, 11a-12a. “[I]t was
humiliating” to be told by his school board “that there
was something wrong with [him], and that [he] should
not be allowed to be with [his] peers in common
spaces.” Id. at 11a. Principal Collins “understood
[Gavin’s] perception” that the policy sent a message
“that Gavin wasn’t welcome.” C.A. App. 174-75.
E.

The Impact of the Policy on Gavin.

The Board’s policy had a devastating impact on
Gavin. App., infra, 12a-14a. He did everything he
could to avoid using the restroom at school. Id. at 12a13a. As a result, he developed painful urinary tract
infections and was often distracted and uncomfortable
in class. Id. at 12a. Gavin’s mother remembers that
the Grimm family “kept boxes of AZO, an over-thecounter medication for urinary tract infections,
always stocked at home to in order to give him some
relief from the pain.” Id. at 23a.
When Gavin absolutely had to use the
restroom, he used the nurse’s office. App., infra, 12a.
Every time he had to walk to the other side of school
to use the nurse’s restroom, Gavin felt like he was
taking a “walk of shame.” Id. It was a constant
reminder that he had been barred from using the
same restrooms as other boys solely because he is
transgender. Id. It also physically isolated Gavin from

11

the rest of his peers by requiring him to travel to a
separate part of the school if he had to use the
restroom between classes. Id. at 12a-13a.
When Gavin attended school football games,
there was no restroom that he could use. App., infra,
12a-13a. The Gloucester High School building was
locked after school, and there are no single-user
restroom facilities in the stadium. Id. One time, Gavin
asked a friend to drive him to Lowe’s or Home Depot
to use the restroom. Id. at 13a. Another time, Gavin
called his mother to take him home early. Id. Gavin’s
mother recalls Gavin saying his “bladder was about to
burst.” Id. at 23a.
By the beginning of his junior year, Gavin’s
distress was so great that he could no longer attend
class. App., infra, 13a. One night, Gavin’s mother
“found him sobbing on the bathroom floor, and he
begged [her] to take him somewhere because he was
having thoughts of suicide.” Id. at 22a-23a. She took
him to the hospital at Virginia Commonwealth
University, where he stayed for several days on the
boys’ ward. Id. at 23a.
After leaving the hospital, Gavin completed
eleventh grade in an independent study program at an
off-site location where students can complete course
credits online. App., infra, 13a-14a. All the students in
the program used a single-stall restroom near the
classroom, so Gavin “was able to use this restroom
without being singled out and treated differently from
everyone else.” Id. at 14a.
The independent study program was not
offered at the off-site location the following year. App.,
infra, 14a. Gavin returned to Gloucester High School

12

for twelfth grade, but he had earned enough academic
credits that he was able to take a reduced course load.
Id. He stayed away from campus as much as possible,
and he continued using the nurse’s restroom when he
was on campus. Id.
F.

The Board Disregards Gavin’s
Order and Birth Certificate.

Court

Over the course of tenth, eleventh, and twelfth
grade, Gavin continued to medically transition and
update his legal documents to reflect that he is male:
•

In December 2014, he began hormone therapy,
which altered his bone and muscle structure,
deepened his voice, and caused him to grow
facial hair. Pet. App. 35a.

•

In June 2015, the Virginia Department of
Motor Vehicles issued him a state I.D. card
identifying him as male. Id. at 37a.

•

In June 2016, he underwent chestreconstruction surgery in accordance with the
medical standards of care for treating gender
dysphoria. Id.

•

On September 9, 2016, the Gloucester County
Circuit Court issued an order pursuant to Va.
Code § 32.1-269(E), changing Gavin’s sex under
Virginia law and directing the Virginia
Department of Health to issue a birth
certificate listing his sex as male. Id.

•

On October 27, 2016, the Virginia Department
of Health issued Gavin a birth certificate listing
his sex as male. Id.

13

The Board nonetheless continued to prohibit its
administrators from allowing Gavin to use the boys’
restrooms. Id. at 88a.
Gavin graduated on June 10, 2017, but the
Board refused to update the gender marker on Gavin’s
official school transcript to match his birth certificate.
Pet. App. 38a. Unlike all his other identification
documents, Gavin’s transcript classified his sex as
“female.” Id. Whenever Gavin had to present his
transcript to a prospective educational institution or
employer, the transcript undermined his male
identity, marked him as different from other boys, and
outed him as being transgender. Id. at 78a-79a.
G.

The Board’s Shifting
“Biological Gender.”

Definitions

of

The Board’s policy provides that the use of male
and female restrooms “shall be limited to the
corresponding biological genders.” Pet. App. 33a. But
the term “biological gender” or “biological sex” has no
consistent legal, scientific, or common meaning. There
are many biological components of sex, which do not
always align in any given individual as typically male
or typically female. Id. at 140a; C.A. App. 174-75.7
When a transgender student receives hormone
therapy, their most prominent and visible sex
characteristics will align with their gender identity—
not the sex assigned to them at birth. C.A. App. 17980. Hormone therapy affects bone and muscle

Approximately 2% of all children born worldwide have intersex
traits with variations in sex organs, chromosomes, and hormones
that do not fit within binary anatomical gender classifications.
Pet. App. 88a.
7

14

structure, and produces secondary sex characteristics
such as facial and body hair in boys and breasts in
girls. Id. at 179. And transgender children who receive
puberty blockers never go through puberty as their
birth-assigned sex. Id. In addition, students who are
16 or older may also undergo chest reconstructive
surgery, which creates a typically male chest for
transgender boys, and at age 18, students may
undergo genital surgery. Id.
Throughout this litigation, the Board’s attempt
to define what it means by “biological gender” has
been a moving target. Superintendent Clemons
testified that he thought “biological gender” was
determined by a student’s “genitalia.” C.A. App. 416.
When asked what the “biological gender” would be if
someone had genital surgery, Clemons said, “I meant
male or female organs when I said genitalia.” Id. at
417. When asked what restroom a transgender girl
would use if, as a result of puberty blockers and
hormone therapy, she had typically female breasts
and hips, Clemons said, “I don’t know the answer to
that question.” Id. at 420. And when asked which
restroom a transgender girl should use if she had an
amended birth certificate with a female gender
marker at the time she registered for school, Clemons
again said, “I don’t know the answer to that question.”
Id. at 422.
On the final day of discovery, the Board
produced a School Board member as a Federal Rule of
Civil Procedure 30(b)(6) witness who asserted for the
first time that the Board defines “biological gender”
for purposes of its restroom policy as the gender on a
student’s current birth certificate—not based on an
assessment of the student’s physiology. C.A. App. 463.

15

According to the witness, an 18-year-old transgender
girl who has not obtained an updated birth certificate
would have to use the boys’ restroom even if she has
breasts and a vagina as a result of hormone therapy
and surgery. Id. at 538. And a transgender boy who
has obtained an updated birth certificate would be
able to use the boys’ restroom, regardless of his
physiology. Id. at 517-18.
In its summary-judgment briefing, the Board
contradicted the sworn testimony of the 30(b)(6)
witness and asserted that “if a student enrolled in
Gloucester High School with a birth certificate
designating the student’s sex as male, but the School
Board later learned through complaints from students
that the student was actually physiologically and
anatomically female,” then “the student would have
been required to use the restroom associated with his
physiological sex or one of the three single-user
restrooms.” District Ct. ECF No. 200, at 27. When the
district court asked counsel to clarify which
physiological characteristics he was referring to,
counsel stated that his “understanding of the Board’s
position” is that “as long as an individual has the
primary genitals and sex characteristics of a
particular gender, male or female . . . that is what they
are considering.” C.A. App. 1147.
H.

The Board’s Justification for Its Policy.

During discovery, the Board’s 30(b)(6) witness
testified that the Board’s policy was justified by a
governmental interest in protecting student privacy
from students of the “opposite physiological sex.” C.A.
App. 472. The witness specifically testified that those
privacy interests related exclusively to “either being
seen naked or seeing someone else naked.” Id. at 469.

16

But when asked why the new expanded stalls
and urinal dividers in the Gloucester High School
restrooms did not fully address those privacy
concerns, the witness responded that he “[was] sure”
the policy also protected privacy interests in other
ways, but that he “[couldn’t] think of any other off the
top of [his] head.’” C.A. App. 471-72.
The Board’s 30(b)(6) witness was also unable to
explain how assigning students to restrooms based on
their sex assigned at birth would protect the privacy
of a boy who is uncomfortable sharing the restroom
with a girl who is transgender and has a typically
female appearance. The witness testified that boys
who are uncomfortable sharing the restroom with a
girl who is transgender could use one of the new
single-stall facilities instead. C.A. App. 487. But the
witness provided no explanation for why the same
single-stall restrooms were insufficient for boys who
are uncomfortable sharing a restroom with a
transgender boy like Gavin.8
I.

Procedural History.

Gavin filed this lawsuit in 2015, alleging that
the Board’s policy discriminated against him on the
basis of sex and transgender status, in violation of

Although the question presented in the Board’s petition is
limited to restrooms, see Pet. i, which are the only facilities Gavin
sought to use, the petition repeatedly alludes to students’ use of
“locker rooms and shower facilities,” Pet. 1. But when Gavin’s
attorneys attempted to ask the Board’s 30(b)(6) witness about
how the Board’s policy protected privacy in locker rooms, the
Board’s counsel declared the questions to be irrelevant because
“this case is not about locker rooms” and instructed the witness
not to answer. C.A. App. 481-83.
8

17

Title IX and the Equal Protection Clause. Pet. App.
38a-39a. The parties spent the next two years
litigating whether Gavin’s motion for a preliminary
injunction should be granted based on guidance
documents issued by the Department of Education. Id.
at 39a-40a. This Court granted certiorari to review
that question, but the Court vacated and remanded
the case to the Fourth Circuit when the incoming
Trump administration withdrew the guidance
documents at issue. Id. Gavin graduated high school a
few months later. Id.
On remand, Gavin withdrew his request for a
preliminary injunction and filed an amended
complaint. Pet. App. 40a. The district court then
denied the Board’s motion to dismiss for failure to
state a claim, holding that Gavin had stated valid
claims under both Title IX and the Equal Protection
Clause for nominal damages and retrospective
declaratory relief. Id. at 40a-41a.
On February 15, 2019, the district court
granted Gavin leave to file a Second Amended
Complaint, which alleged that the Board’s refusal to
update Gavin’s transcript constituted an additional
violation of Title IX and the Equal Protection Clause.
C.A. App. 66-67. The Second Amended Complaint
sought nominal damages, declaratory relief, and a
permanent injunction requiring the Board to provide
Gavin a transcript with the gender marker matching
his Virginia court order and birth certificate. Id. at 8687.
After discovery, the parties filed cross-motions
for summary judgment. Pet. App. 41a. The district
court denied the Board’s motion for summary
judgment and granted Gavin’s motion. Id. at 41a-43a.

18

On appeal, the Fourth Circuit affirmed the
district court’s decision in its entirety. Pet. App. 12a118a.9 With respect to Gavin’s Title IX claim, the court
noted that the Board’s policy classified Gavin “on the
basis of sex” even if that term were narrowly
construed as referring only to a person’s sex assigned
at birth. Id. at 72a. The Fourth Circuit also noted that
Gavin had suffered a legally cognizable harm, both
because the restrooms were inconveniently located
and because “[t]he stigma of being forced to use a
separate restroom . . . invites more scrutiny and
attention from other students, very publicly branding
all transgender students with a scarlet ‘T.’” Id. at 74a75a (cleaned up).
The Fourth Circuit then turned “to the heart of
the Title IX question in this case: whether the policy
unlawfully discriminated against Grimm.” Pet. App.
75a. Guided by Bostock v. Clayton County., Georgia,
140 S. Ct. 1731 (2020), the Fourth Circuit recognized
that the term “discrimination” typically “mean[s]
treating [an] individual worse than others who are
similarly situated.” Pet. App. 75a (citing Bostock, 140
S. Ct. at 1740). Gavin was treated worse than
similarly situated students because, unlike all other
students at Gloucester High School, Gavin “could not
use the restroom corresponding with his gender” and
had to use alternative single-stall facilities. Id. at 75a76a. The Fourth Circuit explained that Title IX’s
implementing regulations allow schools to provide
“separate toilet . . . facilities on the basis of sex” but do
not authorize schools to do so in a manner that
The Board does not seek review of the Fourth Circuit’s decision
with respect to the gender marker on Gavin’s transcript. Pet. i.
9

19

subjects students to separate and unequal treatment.
Id. at 76a.
With respect to Gavin’s equal protection claim,
the Fourth Circuit explained that the Board’s
restroom policy must be reviewed under heightened
scrutiny, both because the policy rests on sex-based
classifications and because classifications based on
transgender status are at least quasi-suspect. Pet.
App. 51a. Applying heightened scrutiny, the Fourth
Circuit held that the Board failed to show that Gavin’s
exclusion from the same restrooms as other boys was
substantially related to the Board’s asserted interest
in protecting students from exposure to nudity. Id. at
65a-69a. The court noted that the Board’s own 30(b)(6)
witness failed to identify any potential exposure to
nudity that was not addressed by the additional
privacy protections and stall dividers installed by the
Board. Id. at 66a. The court further noted that “[t]he
insubstantiality of the Board’s fears has been borne
out in school districts across the country, including
other school districts in Virginia.” Id.
Judge Wynn concurred and wrote separately to
“emphasize several particularly troublesome aspects
of the Board’s policy.” Pet. App. 81a. First, despite the
Board’s invocation of “biology,” Judge Wynn explained
that “the Board’s policy provides no consistent basis
for assigning transgender students—who often
possess a mix of male and female physical
characteristics—to a particular bathroom.” Id. at 82a.
And the Board’s reliance on a student’s birth
certificate at the time of enrollment “fails to treat even
transgender students alike” because two transgender
students with identical physiologies would be treated
differently if one of them had obtained an amended

20

birth certificate before enrolling in Gloucester County
schools. Id. at 84a.
Judge Wynn also noted that, for purposes of
using a restroom, a transgender student’s outward
physical
appearance
and
secondary-sex
characteristics are more relevant than the student’s
unseen genitals. “Unlike his clothed genitals, Grimm’s
male characteristics—no breasts, masculine features
and voice timbre, facial hair, and a male haircut—
would have been readily apparent to any person using
the . . . restroom. Put simply, Grimm’s entire outward
physical appearance was male.” Pet. App. 87a. Placing
Gavin in the girls’ restroom (or a girl who is
transgender in the boys’ restroom) would therefore
“produce[] the very privacy harms [the Board]
purportedly seeks to avoid.” Id. at 85a.
Judge Wynn also rebutted the Board’s assertion
that its policy treats transgender students the same
as other students. He explained that “despite the
Board’s contention that there is no problem because
Grimm could have used the girls’ bathrooms or the
single-stall bathrooms, we must take a careful and
practical look at the options he realistically faced.”
Pet. App. 89a. And the reality was that Gavin “could
no more easily use the girls’ restrooms than a
cisgender boy.” Id. at 90a (emphasis omitted). Instead
of providing “separate but equal accommodations in
schools on a male/female basis,” the Board’s policy
“ensures that transgender students may use neither
male nor female bathrooms due to the incongruence
between their gender identity and their sex-assignedat-birth.” Id. at 91a.
Judge Niemeyer dissented. Pet. App. 97a-118a.
Although the Board’s 30(b)(6) witness testified that

21

the only privacy interest at issue in the case was
exposure to nudity, Judge Niemeyer argued sua
sponte that the relevant “privacy interests are broader
than the risks of actual bodily exposure. They include
the intrusion created by [the] mere presence” of a
transgender student in the restroom “when we ‘shit,
shower, shave, shampoo, and shine.’” Id. at 111a
(emphasis omitted).
The Fourth Circuit denied the Board’s petition
for rehearing en banc on September 22, 2020. Pet.
App. 1a-11a.
REASONS FOR DENYING THE PETITION
I.

THERE IS NO SPLIT IN THE CIRCUITS.

In seeking this Court’s review, the Board does
not identify any lower-court conflict for this Court to
resolve. The Fourth, Seventh, and Eleventh Circuits
have all held that school districts violated Title IX and
the Equal Protection Clause by prohibiting boys who
are transgender from using the same restrooms as
other boys and forcing them to use separate and
unequal single-user restrooms. See Pet. App. 12a-118a
(decision below); Whitaker ex rel. Whitaker v. Kenosha
Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034
(7th Cir. 2017); Adams ex rel. Kasper v. Sch. Bd. of St.
Johns County, 968 F.3d 1286 (11th Cir. 2020), pet’n for
rehearing en banc filed, Aug. 28, 2020.10

To the extent that Petitioner speculates that the Eleventh
Circuit could grant rehearing en banc in Adams, this Court may
choose to defer action on the Board’s petition for a writ of
certiorari until the petition for rehearing en banc in Adams is
resolved.
10

22

A motions panel of the Sixth Circuit reached
the same conclusion in a case involving an elementary
school girl who is transgender, and who had to be
escorted to separate locked facilities whenever she
had to use the restroom. Dodds v. U.S. Dep’t of Educ.,
845 F.3d 217 (6th Cir. 2016) (denying stay pending
appeal).
In addition, the Third and Ninth Circuits have
rejected claims by plaintiffs who sought to exclude
transgender students from common school restrooms
in the name of protecting the privacy of students who
are not transgender. See Doe ex rel. Doe v. Boyertown
Area Sch. Dist., 897 F.3d 518 (3rd Cir. 2018), cert.
denied, 139 S. Ct. 2636 (2019); Parents for Priv. v.
Barr, 949 F.3d 1210 (9th Cir. 2020), cert. denied, 141
S. Ct. 894 (2020). In all of these cases, no student—
whether transgender or not—was exposed to nudity in
the restrooms.
In light of the lower courts’ unanimity, it is
unsurprising that the Board does not attempt to argue
that this Court’s intervention is necessary to resolve a
split in the lower courts. What School Board dismisses
as a “handful” of lower-court decisions, Pet. 23, is in
fact a broad and unanimous consensus.11

The reasons the Court granted certiorari in this case five years
ago are now wholly absent. At that time, the Court was
confronted with a split in authority as to whether deference
should be given to the Department of Education’s guidance
documents under Auer v. Robbins, 519 U.S. 452 (1997). Compare
G.G. v. Gloucester Cty. Sch. Bd., 822 F.3d 709 (4th Cir. 2016),
with Texas v. United States, 201 F. Supp. 3d 810 (N.D. Tex. 2016).
Today, there is no agency interpretation to defer to, and there is
uniformity in the circuits as to the application of Title IX.
11

23

II.

THE DECISION BELOW IS CORRECT.

The courts of appeals’ unanimous answer to the
question presented is also the correct answer. Where,
as here, the evidence shows that an explicitly sexbased restroom policy is used to “exclude[]” a
transgender student “from participation in,” to
“den[y]” him “the benefits of,” or to “subject[]” him “to
discrimination under” an educational program
receiving federal financial assistance, Title IX, 20
U.S.C. § 1681(a), and the Equal Protection Clause
provide a remedy.
A.

Under
Title
IX,
Sex-Specific
Restroom Policies May Not Be
Applied in Ways that Discriminate
Against Transgender Students.
1.

Title
IX
prohibits
discrimination
based
on
transgender status.

Title IX “prohibits a funding recipient from
subjecting any person to ‘discrimination’ ‘on the basis
of sex.’” Jackson v. Birmingham Bd. of Educ., 544 U.S.
167, 173 (2005) (quoting 20 U.S.C. § 1681(a)). The
term “discrimination” typically “refers to distinctions
or differences in treatment that injure protected
individuals.” Burlington N. & Santa Fe Ry. Co. v.
White, 548 U.S. 53, 59 (2006). And “[t]he statute’s
other prohibitions” further “help to give content to
‘discrimination’ in this context.” Davis ex rel.
LaShonda D. v. Monroe Cty. Bd. of Educ., 526 U.S.
629, 650 (1999). “Students are not only protected from
discrimination, but also specifically shielded from
being ‘excluded from participation in’ or ‘denied the
benefits of’ any ‘education program or activity

24

receiving [f]ederal financial assistance.’” Id. at 650.
(quoting 20 U.S.C. § 1681(a)).
Discriminating against a student for being
transgender is discrimination “on the basis of sex”
under Title IX. In Bostock this Court held that
discrimination against a person because they are
transgender is discrimination “because of . . . sex”
under Title VII of the Civil Rights Act of 1964, even
assuming “sex” refers exclusively to a person’s sex
assigned at birth. When an employer discriminates
against a person because they are transgender, the
Court explained, the employer “necessarily and
intentionally discriminates against that individual in
part because of sex.” Bostock, 140 S. Ct. at 1744.12
The same reasoning applies to Title IX. Both
statutes focus on discriminatory treatment of
individuals, not groups: Title VII protects “[a]ny
individual,” 42 U.S.C. § 2000e–2(a)(1); Title IX
protects any “person,” 20 U.S.C. § 1681(a). And both
statutes require no more than “but for” causation:
Title VII prohibits discrimination “because of” sex, 42
U.S.C. § 2000e–2(a)(1); Title IX prohibits
discrimination “on the basis of” sex, 20 U.S.C. §
1681(a). Both terms entail no more than a “but for”
causation standard. See Comcast Corp. v. Nat’l Ass’n
of Afr. Am.-Owned Media, 140 S. Ct. 1009, 1013
(2020). Thus, as with Title VII, to discriminate against
a student because he is transgender is to discriminate

As in Bostock, this Court need not resolve whether the term
“sex” in 1972 “captur[ed] more than anatomy and reach[ed] at
least some norms concerning gender identity and sexual
orientation” because the outcome would be the same under any
definition of the term. 140 S. Ct. at 1739.
12

25

based on sex. “And that is all Title [IX] has ever
demanded to establish liability.” Bostock, 140 S. Ct. at
1744.
2.

Schools may not discriminate
in the provision of sexseparated restrooms.

There is no statutory “donut hole” to Title IX
that allows schools to use sex-based restroom policies
to injure particular students or to deny them equal
educational opportunity. Bostock, 140 S. Ct. at 1747.
Although the statute’s prohibition on discrimination
is subject to a list of “specific, narrow exceptions,” Pet.
21 (quoting Jackson, 544 U.S. at 175), the exceptions
do not include restrooms. The exceptions to Title IX’s
prohibition on discrimination are all listed in 20
U.S.C. § 1681(a)(2)-(9), which enumerates specific
contexts in which section 1681(a)’s prohibition on
discrimination “shall not apply.”
There is no similar exception to discrimination
for restrooms. An implementing regulation authorizes
schools to “provide separate toilet . . . facilities on the
basis of sex,” if the separate facilities are
“comparable.” 34 C.F.R. § 106.33. But the regulation
does not exempt restrooms from section 1681(a)’s
prohibition on discrimination and does not allow
schools to “injure protected individuals” on the basis
of sex whenever restrooms are at issue. Burlington,
548 U.S. at 59.
There is also no authorization to discriminate
in the statutory provision regarding dormitory “living
facilities,” which—despite the Board’s assertion to the
contrary, Pet. 4—has nothing to do with school
restrooms. Restrooms in public school building are

26

classic public accommodations, not living facilities.13
And even if they were treated as such, the provision
simply authorizes schools to “maintain[] separate
living facilities for the different sexes,” 20 U.S.C. §
1686,
while
leaving
the
prohibition
on
“discrimination” undisturbed.
3.

The Board’s restroom policy
Gavin
to
subjected
discrimination.
The undisputed evidence establishes that, by
treating Gavin differently from other boys because he
is transgender, the Board subjected Gavin to
discrimination. Whether differential treatment
amounts to discrimination must be judged from “the
perspective of a reasonable person in the plaintiff’s
position, considering ‘all the circumstances.’”
Burlington, 548 U.S. at 71 (quoting Oncale v.
Sundowner Offshore Servs., Inc., 523 U.S. 75, 81
(1998)). That “inquiry requires careful consideration
of the social context in which particular behavior
The Board’s assertion that “the Department of Education has
long interpreted ‘living facilities’ to include ‘toilet, locker room,
and shower facilities,” Pet. 4, lacks any foundation in the
administrative record. When Title IX’s implementing regulations
were first published in the Federal Register, the final rule
indicated the source of statutory authority for each regulatory
provision. The only regulation implementing the statutory
provision for living facilities was the provision on “Housing,” now
codified at 34 C.F.R. § 106.32. See Nondiscrimination on the
Basis of Sex in Education Programs and Activities Receiving or
Benefiting from Federal Financial Assistance, 40 Fed. Reg.
24127, 24141 (June 4, 1975). The regulation for separate toilet
facilities now codified at 34 C.F.R. § 106.33 did not reference the
statutory provision regarding living facilities or otherwise claim
to implement it. See id.
13

27

occurs and is experienced by its target.” Oncale, 523
U.S. at 81.
Despite the Board’s assertion that its
“biological gender” policy treats all students equally,
the sole function of the policy is to segregate
transgender students from their peers. As Judge
Wynn explained, the use of such terms “to classify
students has the effect of shunting individuals like
Grimm—who may not use the boys’ bathrooms
because of their ‘biological gender,’ and who cannot
use the girls’ bathrooms because of their gender
identity—to a third category of bathroom altogether.”
Pet. App. 81a. Indeed, the text of the Board’s policy
makes clear that its purpose was to move students
with “gender identity issues” to “alternative” facilities.
Id. at 56a.
The consequences for Gavin were devastating.
“In an experience all too common for transgender
individuals (particularly children), early in his junior
year at Gloucester High, Grimm was hospitalized for
suicidal thoughts resulting from being in an
environment of ‘unbearable’ stress where ‘every single
day, five days a week’ he felt ‘unsafe, anxious, and
disrespected.’” Pet. App. 92a. When transgender
students are excluded from using the same restrooms
as other students based on their sex assigned at birth
and are effectively required to deny their gender
identity, they suffer real injuries that significantly
impair their ability to access the educational benefits
that Congress sought to protect. See Adams, 968 F.3d
at 1307; Whitaker, 858 F.3d at 1041; Dodds, 845 F.3d
at 221-22.
In this case, the separate restrooms for
students “with gender identity issues” were not

28

“equal” in any sense. The “alternative” restrooms were
single-stall facilities, not common restrooms shared
with others. They were far from Gavin’s classes. And
they were completely absent from the football
stadium. See App, infra, 11a-13a.
The Board argues that this discriminatory
treatment was justified because Gavin was not
“similarly situated” to other boys. Pet. 19. But the
question is whether Gavin was similarly situated to
non-transgender boys in all relevant respects. Cf. City
of Cleburne, Tex. v. Cleburne Living Ctr., 473 U.S. 432,
448 (1985). Whatever relevance a transgender
person’s chromosomes or unseen genitals may have in
other contexts, those differences between Gavin and
non-transgender boys are not relevant to which
common restroom they use. Gavin’s “entire outward
physical appearance was male,” and “he could no more
easily use the girls’ restrooms than a cisgender boy.”
Pet. App. 87a, 90a (emphasis omitted).
On these facts, the evidence unequivocally
established that excluding Gavin from the same
restrooms as other boys because he is transgender was
a “distinction[] or difference[] in treatment that
injure[d] [a] protected individual[],” on the basis of his
sex. Burlington, 548 U.S. at 59. Unlike all other
students, Gavin alone was prohibited from using the
multi-user restrooms and relegated to “alternative”
facilities because he is transgender. That separate and
unequal
treatment
“excluded”
Gavin
“from
participation in,” “denied” Gavin “the benefits of,” and
“subjected” Gavin “to discrimination under” an
educational program receiving federal financial
assistance, in violation of the plain text of Title IX, 20
U.S.C. § 1681(a).

29

B.

Subjecting Transgender Students to
Separate and Unequal Treatment in
the Use of Restrooms Violates the
Equal Protection Clause.

The court of appeals also correctly concluded
that the Board’s treatment of Gavin violated equal
protection. “[A]ll gender-based classifications today
warrant heightened scrutiny.” United States v.
Virginia, 518 U.S. 515, 555 (1996) (cleaned up). As
with Title IX, “equal accommodations in schools on a
male/female basis . . . says nothing about what
happened in this case: separation of transgender
students from their cisgender counterparts through a
policy that ensures that transgender students may
use neither male nor female bathrooms due to the
incongruence between their gender identity and their
sex-assigned-at-birth.” Pet. App. 91a. To justify its
relegation of Gavin to separate and unequal
restrooms, the Board must carry its “demanding”
burden under heightened scrutiny. Virginia, 518 U.S.
at 533.
The Board failed to carry that burden. The
Board argued below that its policy advances an
important governmental interest in protecting
students from unwanted exposure to nudity among
people with different physiological sex characteristics.
But the Board presented no evidence whatsoever that
its exclusion of Gavin from the boys’ restrooms was
substantially related to that interest. “[A]s a matter of
common sense, any individual’s appropriate use of a
public bathroom does not involve exposure to nudity—
an observation that is particularly true given the
privacy enhancements installed in the bathrooms at
Gloucester High.” Pet. App. 86a. When asked why the

30

expanded stalls and urinal dividers did not fully
address the Board’s privacy concerns, the Board’s
30(b)(6) witness responded that he “[was] sure” the
policy also protected privacy interests in other ways,
but that he “[couldn’t] think of any other off the top of
[his] head.” C.A. App. 472. Such concededly
unsubstantiated speculation does not satisfy
heightened scrutiny.
The Board analogizes the exclusion of
transgender students from restrooms at Gloucester
High School to the privacy alterations installed at the
Virginia Military Institute after the admission of
women. See Pet. 30 (citing Virginia, 518 U.S. at 550
n.19). But that analogy misses the Virginia Court’s
point, which was that privacy concerns do not justify
overbroad exclusions when they can be addressed
more narrowly. See Virginia, 518 U.S. at 555 n.20. The
proper analogy to the privacy alterations installed at
VMI are the privacy alterations that have already
been installed at Gloucester High School: urinal stall
dividers, privacy strips in stalls, and single-user
facilities for all students to use if they wish for even
greater privacy. Those privacy alterations have
eliminated any hypothetical risk of exposure to nudity
without harming, excluding, or stigmatizing anyone.
Virginia neither authorizes nor permits schools to use
overbroad assertions of “privacy” to deprive students
of equal educational benefits.
Judge Niemeyer defended the Board’s
overbroad policy by arguing sua sponte that the Board
has an important governmental interest in protecting
non-transgender students from the “mere presence” of
transgender students in common restrooms. Pet. App.
111a. According to the dissent, “we want to be alone—

31

to have our privacy—when we ‘shit, shower, shave,
shampoo, and shine.’” Id. But a judge’s after-the-fact
personal speculations do not satisfy the Board’s
burden. And the dissent’s argument plainly proves too
much. It would justify excluding any minority group if
the majority in any particular community wishes to
avoid sharing restrooms with them. Cf. Lawrence v.
Texas, 539 U.S. 558, 602 (2003) (Scalia, J., dissenting)
(“Many Americans do not want persons who openly
engage in homosexual conduct as partners in their
business, as scoutmasters for their children, as
teachers in their children’s schools, or as boarders in
their home.”).
To be sure, difference can be discomforting. The
government is free to respond to that discomfort, so
long as it does so without discrimination. Cf. Cleburne,
473 U.S. at 448. Any student who “want[s] to be
alone,” Pet. App. 111a, when using the restroom at
Gloucester High School is free to use one of the singlestall facilities if they are uncomfortable with the
presence of a transgender student, or anyone else. But
“[t]here is a vast difference—a Constitutional
difference—between restrictions imposed by the state
which prohibit the . . . commingling of students and
the refusal of individuals to commingle where the
state presents no such bar.” McLaurin v. Okla. State
Regents for Higher Educ., 339 U.S. 637, 641 (1950).
Excluding transgender students from common spaces
based on the alleged discomfort of others “would very
publicly brand all transgender students with a scarlet
‘T,’ and they should not have to endure that as the
price of attending their public school.” Boyertown, 897
F.3d at 530.

32

CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully Submitted,
Eden Heilman
AMERICAN CIVIL LIBERTIES
UNION OF VIRGINIA
FOUNDATION, INC.
701 E. Franklin Street,
Suite 1412
Richmond, VA 23219

Joshua A. Block
Counsel of Record
Chase B. Strangio
Leslie Cooper
James D. Esseks
Louise Melling
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
jblock@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Date: May 25, 2021

33

APPENDIX

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Newport News Division
GAVIN GRIMM,
Plaintiff,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant
Civil Case No. 4:15-cv-54
DECLARATION OF GAVIN GRIMM
1.
I am the plaintiff in the above-captioned
action. I have actual knowledge of the matters stated
in this declaration.
2.

My name is Gavin Elliot Grimm.

3.
I was born in Gloucester County on May 4,
1999, and lived in Gloucester County all my life until
January 2018.
4.
I currently reside in Berkeley, California
where I attend school at Berkeley City College and
engage in community activism work.
5.
I was a student at Gloucester High School
and graduated on June 5, 2017.
My Early Childhood Before Transition
6.
I have always known that I am a boy. I
always saw myself as a boy, identified with male
cartoons, and related to male characters. During
imaginary play as a young child, I always cast myself
in a male role with a traditionally male or gender1a

neutral name.
7.
Around the time that I reached school age, I
first started to understand that others perceived me
as a girl. I also began to recognize that society
perceives large differences between men and women,
including different expectations about their social
roles. In part, this realization developed as I expressed
interest in activities that were not available to me
because I was seen by others as a girl. At that point, I
had an understanding that the female physical and
social role I was assigned were inaccurate. But I did
not have the language at the time to vocalize those
feelings.
8.
Starting in elementary school, I was bullied
throughout my entire school career, in part because I
did not conform to traditionally feminine gender
expectations. Peers threw things at me, called me
horrible names, refused to sit near me, and excluded
me from activities. I was called names frequently, at
least once or twice a day. Students would call me
“faggot,” “dyke,” “homo,” “weirdo,” and make
references to my weight.
9.
I recall one instance when students were
asked to line up boy, girl, boy, girl. I remember the
person assigning students placed me in one of the
“boy” positions. This was a moment of great joy for me.
10.
Throughout my childhood I would request
boys’ clothing, but was told it was not appropriate for
me. As I grew older, I would fight with my mom to let
me shop in the boys’ aisle. I remember a particularly
distressing experience when my sister got married
and my mother insisted I wear a dress. That was a
painful, drawn-out process. For every store we went
to, I would walk in, take one look, and say I hated
2a

them all. I really fought hard not to wear a dress and
eventually, after a lot of tears, I wore one that was
very plain and black, like a square with straps. I was
incredibly distressed, and the first thing I greeted my
relatives with was “please don’t call me pretty,”
because I did not want to be perceived as feminine in
any way.
11.
At around age 12, I was able to exercise
more control over my clothing and hairstyle. I cut my
hair short in a style traditionally associated with boys,
and wore clothing exclusively from the boys’ section of
stores.
12.
When I was 13, I also began using a
compression garment, often referred to as a chest
binder, to flatten my breasts. I never left the house
without wearing the compression garment.
13.
Everyone who knew me still assumed that I
was a girl because I had not at that time discovered
the word transgender and how that related to who I
was. But, outwardly, I presented very masculine, and
that was not something that was unnoticed by peers
and friends. When I went in women’s restrooms, I was
chased out or yelled at by girls or women saying “you
are not supposed to be in here,” or telling me that I
was in the wrong place and needed to leave.
My Gender Transition and Coming Out
14.
Around the same time, I first learned about
the term “transgender” from the internet, and realized
that there was a word for the feelings I had felt all my
life. I had not known about gender transition before,
and I was ecstatic to discover it was something a
person could do.
15.

I had very few friends when I was younger,
3a

but as I acknowledged my male gender identity to
myself and began to feel more comfortable with who I
am, I began to form a group of close friends. One time
in ninth grade, before I had revealed to any of my
friends that I was transgender. I remember a friend
saw another student and remarked, “that looks like
the male version of Gavin.” My other friend said in
response, “Gavin is the male version of Gavin.” (This
was before I changed my name, so they actually used
said my old name instead of “Gavin” when they
talked.) I was elated that one of my closest friends
perceived me as male, even before I had revealed my
gender identity to them.
16.
During ninth grade, I gradually began
disclosing to friends that I was a boy. Since the
reactions of my friends were generally positive and
supportive, I disclosed my gender identity to more
friends. By the end of ninth grade, most of my friends
were aware of my gender identity, and I lived openly
as a boy when socializing with friends away from
home and school.
17.
But I was still afraid to reveal to my family
or teachers that I was transgender. My home and
community environment was very conservative and
also religious. The teachings of the churches in our
community were that being gay or transgender was
wrong and evil.
18.
This made my ninth grade year very
difficult for me. Continuing to be seen by others as a
girl was incredibly distressing to me. When I would
raise my hand to answer a question in class, teachers
would say “yes, ma’am.” Teachers continued to refer
to me by a female name. Using the girls’ restrooms
was also a constant source of anxiety, so I began

4a

avoiding the restrooms at school.
19.
The cumulative stress of being constantly
misgendered caused depression and anxiety so severe
that I could not attend school during the spring
semester of my freshman year. My ability to function
at school became so diminished that it was not
possible for me to continue going to school. My social
anxiety related to being gendered incorrectly was so
bad that I was afraid to go outside, where I might
encounter other people. I was miserable, and as a
result, could not focus academically. Instead, I took
classes through a home-bound program that follows
the public high school curriculum through online
classes.
20.
In April 2014 I finally came out to my
mother as a boy. I had previously downloaded a PDF
on a reading tablet with information about what it
means to be transgender, but I had been too nervous
to show it to her. That day, we were in the kitchen
talking about something else, and she said the word
“transgender.” I did not think she was aware of that
word. When she said the word “transgender,” I ran off
to find the tablet—but I couldn’t find it. So I came back
and told her that I am transgender, and a boy.
21.
My mom told me she loved me and would
support me, but she told me not to tell the rest of my
family yet. She also helped pick a new name for me:
Gavin.
22.
We ended up telling the rest of my family a
few weeks later at a party for my fifteenth birthday.
The morning of the party I was overwhelmed by grief
and anxiety. I had locked myself in my bedroom,
deeply traumatized by the thought of experiencing
another birthday as a “birthday girl.” My father
5a

knocked, and he asked me what the problem was. I
told him, “Mom said I wasn’t allowed to tell you.” So he
asked my mom, and she told him I was a boy. My mom
then called the rest of my relatives who were on the
way to the party to tell them that I was a boy. She
wiped off my old name from the birthday cake, and
wrote “Gavin” in its place.
23.
My mother made clear to my dad and my
brother that she expected them to respect that I am a
boy and to use my correct name and pronouns. That
was not a point of negotiation in our household. It took
a few months for my father and brother to get used to
it. But they eventually shifted from tacitly accepting
my identity to fully supporting me. My father and
brother would comfortably say to other people “he’s my
son,” or “he’s my brother.”
24.
At my request, I began therapy with a
psychologist who had experience with working with
transgender patients. The psychologist diagnosed me
with
gender
dysphoria.
The
psychologist
recommended that I immediately begin living as a boy
in all respects. That included using a male name and
pronouns and using boys’ restrooms. The psychologist
gave me a “treatment documentation letter” to
confirm I was receiving treatment for gender
dysphoria and that, as part of that treatment, I should
be treated as a boy. A copy of that treatment
documentation letter is attached as Exhibit A. In
addition, the psychologist recommended that I see an
endocrinologist to begin hormone treatment for
gender dysphoria.
25.
In July 2014, I petitioned the Circuit Court
of Gloucester County to change my legal name to
Gavin Elliot Grimm, and the court granted the

6a

petition.
Starting Tenth Grade as a Boy
26.
Before the beginning of tenth grade, my
mother and I met with Gloucester High School
guidance counselor Tiffany Durr to explain that I was
a boy and needed to socially transition at school as
part of my medical treatment. Ms. Durr expressed
support for me and a willingness to ensure a
welcoming environment for me at school.
27.
Ms. Durr and I agreed that I would send an
email to teachers explaining that I was to be
addressed using the name Gavin and to be referred to
with male pronouns. This was to avoid the potential of
misgendering (a practice of unintentionally or
maliciously misidentifying my gender) or deadnaming
(a practice of using a transgender person’s birth name,
instead of their chosen name).
28.
I did not personally experience malicious
misgendering from staff, but there were small groups
of students who would make a point to greet me by my
dead name, and deliberately identify me as a girl. I
recall one instance where my name, “Gavin,” was
called for attendance, and a classmate started
laughing. I heard him tell everyone, “that’s a chick,
that’s a chick,” and repeatedly tried to call my
attention by yelling my old name. But after I
complained to the teacher, she made sure that the
student did not harass me in class again.
29.
I initially agreed to use a separate restroom
in the nurse’s office, but once I began school, I soon
found it stigmatizing to use a separate restroom.
I began to feel anxiety and shame surrounding my
travel to the nurse’s office. The location of the nurse’s
7a

office made it difficult for me to use the restroom
between classes, as it was located in a different part of
the building and was very inconvenient to reach from
my classrooms. I recall my frustration with missing
instructional time in class.
30.
I was also embarrassed by how long it would
take for me to get to and return from the nurse’s office.
On at least one occasion a teacher commented on my
lengthy disappearance when I reentered the
classroom. The teacher made a big public point about
how long I had been gone in a way that I felt was
humiliating. Other times, students would say, “what
took you so long,” and other snide remarks.
31.
I was allowed to use a faculty restroom that
was closer to my classes, but I was even more
embarrassed to use the faculty restroom than the
restroom in the nurse’s office. I was worried that
another student would see me go into a faculty
restroom, which would have been even more
uncommon than my going to the nurse’s office.
32.
After a few weeks, I asked Ms. Durr and
Principal Nate Collins to be allowed to use the boys’
restrooms. I expressed to Mr. Collins that it was
stigmatizing and embarrassing to have to travel to a
separate restroom, and that it was also detrimental to
my instructional time to have to travel so far to use
the restroom. I said that it identified me as different
and as a target for harassment.
33.
I did not need to use the locker rooms
because I had elected to continue completing my
physical education classes through an online program.
34.
I also informed Mr. Collins that I was
expecting to begin hormone therapy. My family and I
had met with a pediatric endocrinologist at Virginia
8a

Commonwealth University to begin hormone therapy
treatment. But my initial blood tests revealed that my
body was already producing an unusually high
amount of testosterone. Before I could begin hormone
therapy I had to wait several weeks while the doctors
made sure that I did not have an endocrine disorder
that was incompatible with hormone therapy.
35.
Mr. Collins told me he would check with
others. A few weeks later, Mr. Collins met with me
again and said that I could use the same restrooms as
other boys.
36.
I started using the restrooms on October 20,
2014. For approximately the next seven weeks, I used
the boys’ restrooms at school. During the time I used
the boys’ restrooms, I never encountered any problems
from other students. Over the course of those seven
weeks, I had a single conversation with a student in
the restroom. He asked me if I liked his socks, and I
said yes.
37.
At the time I was granted permission to use
the boys’ restroom at school, I had already been using
the boys’ restroom in public places in Gloucester and
outside of Gloucester, so this was very natural to me.
38.
After being respected as a boy and allowed
to use the same restrooms as other boys, I was excited
about the prospect of living out the rest of my school
year as just another student. The seven weeks when I
had been respected and treated like other boys were
the most comfortable I ever felt at school.
The School Board’s New Policy
39.
On November 10, 2014, my mother and I
learned that the School Board would be discussing my
use of the boys’ restrooms at its meeting on November
9a

11, 2014. No one from the Gloucester High School
administration or the School Board informed us of this
discussion. We learned about it through a Facebook
post encouraging people to attend and speak out
against me using the boys’ restrooms, with many vile
comments about a girl being in the boys’ restroom. My
mom and I were frustrated, and we felt it was wrong
that we were not given advanced notice that the
question of my bathroom use was going to be debated
at a public school board meeting.
40.
My parents and I attended the meeting to
speak against the policy. After having the experience
of being treated just like other boys, I could not sit on
the sidelines and let the School Board take it away
from me. If I did not speak up, the conversation would
have been held without me and with no one to support
me. Since it was a conversation about my future, I
wanted to be included.
41.
I also attended the School Board’s meeting
on December 9, 2014.
42.
Members of the public who spoke at the
meetings made openly hostile comments about me,
calling me “a freak,” “a dog,” and all sorts of hateful
horrible language. Many of these individuals went to
great lengths to refer to me with female pronouns or
honorifics such as young lady, little miss, ma’am, or
missus.
43.
As a result of the school board meetings and
the new transgender restroom policy, I felt like I had
been stripped of my privacy and dignity. Having the
entire community discuss my genitals and my medical
condition in a public setting has made me feel like a
public spectacle. Everyone could now identify me as
“the transgender student who wants to use the boys’
10a

restroom,” which made me incredibly anxious and
fearful.
44.
The day after the school board meeting, Mr.
Collins told me that I would no longer be allowed to
use the boys’ restrooms and that there would be
disciplinary consequences if I tried to do so.
45.
After having had the opportunity to live
consistent with my gender identity, I was devastated
when it was taken away from me. It was humiliating
for the School Board to take the position that there
was something wrong with me, and that I should not
be allowed to be with my peers in common spaces.
46.
Although the Board had announced that it
would construct three new single-user restrooms,
those restrooms were not completed until about a
week after the policy went into effect. At one point
during that week, I stayed after school for an event
and realized that the nurse’s office was locked and it
would be several hours before my parents could pick
me up. I was very distraught—totally devastated—
that I had nowhere to use the restroom in my own
school, so I broke down and went sobbing to the library
to ask for help. One of the librarians drove me home
so that I could use the restroom.
47.
After the three single-stall restrooms were
constructed at Gloucester High School, I looked inside
the restrooms once or twice just to see what they
looked like, but I never used them. The single-stall
restrooms made me feel even more stigmatized and
isolated than using the nurse’s office because everyone
knew that they were installed for me in particular, so
that other boys would not have to share the same
restroom as me.
48.

Although the school said that all students
11a

could use the single-stall restrooms, I was the only
student mandated to use them. I never saw any other
student use the single-stall restrooms either. Two of
the restrooms were near the lunchroom, and when my
friends and I sat down for lunch we could see the
restrooms, but I never saw any student use them.
49.
Unlike some of the boys’ restrooms, none of
the new single stall restrooms were located near my
classes. Only one of the single-stall restrooms is
located anywhere near the restrooms used by other
students. Because all three facilities are clustered
near each other, they were not much closer or more
convenient than the nurse’s restroom.
50.
Instead of using the separate restrooms, I
tried to avoid using the restrooms entirely while at
school. When that was not possible, I used the nurse’s
restroom. Every time I had to walk to the nurse’s
room, I felt like I was doing a walk of shame. I was
embarrassed that everyone who saw me enter the
nurse’s office knew exactly why I was there: because I
am transgender, and I was prohibited from using the
same restrooms as other boys.
51.
I tried to limit the amount of liquids I drank
and tried to “hold it” when I needed to urinate during
the school day. Avoiding the restroom was distracting
when I was trying to focus in class. And, as a result of
trying to avoid using the restroom, I repeatedly
developed painful urinary tract infections. The only
time I developed these infections was during the
school year when I had to avoid using the restroom; I
did not develop infections during summer vacations,
and now that I have graduated from Gloucester High
School, that problem has disappeared.
52.

The restroom policy also interfered with my
12a

involvement in school events and activities, making
me feel even more targeted and isolated. There was no
restroom I could use when attending football games
because there were no single-user facilities by the
athletic field and school buildings were locked afterhours, so I tried very hard to plan ahead so that I
would not have to use the restroom during the game.
But there were a few occasions when I needed to use
the restroom, and I had to leave the game early. One
time, a friend had to drive me down the road to use a
restroom at a nearby Lowe’s or Home Depot. Another
time, my mother just came and took me home.
53.
Shortly after the policy went into effect, I
met with Ms. Durr and told her that I felt humiliated
and distressed by the Board’s policy. But I knew that
she could not do anything to change it. After that, I
realized that talking to school counselors and
administrators was pointless because the Board had
already decided that it didn’t care about my wellbeing.
Counselors and administrators could not give me
permission to use the boys’ restroom, and I did not
have faith in the school system to protect me.
54.
By the time I started eleventh grade, the
stress was unbearable. I was in an environment every
single day, five days a week, where I felt unsafe,
anxious, and disrespected. I told my mom that I was
having suicidal thoughts, and I was hospitalized
briefly at Virginia Commonwealth University (VCU)
Medical Center Critical Care Hospital for mental
health treatment for suicidality, depression, and
anxiety.
55.
Instead of returning to Gloucester High
School to resume classes, I completed the rest of
eleventh grade in an independent study program at

13a

the “T.C. Walker” building, which is a separate
location where students could complete course credits
through an online computer program. At the “T.C.
Walker” building, all the students in the independent
study program used a single-stall restroom that was
near the classroom. I was able to use this restroom
without being singled out and treated differently from
everyone else.
56.
When I was in twelfth grade, the
independent study program was no longer offered at
“T.C. Walker.” I returned to Gloucester High School,
but I had stored up enough credit from online courses
that I had a reduced course load. For all of twelfth
grade, I continued to use the nurse’s restroom when I
absolutely had to, and I stayed away from campus as
much as possible.
57.
I graduated Gloucester High School on June
5, 2017.
58.
Living through this experience has made me
stronger than I ever thought I could be, but I am still
deeply hurt and upset about what the School Board
put me through for all those years. At the beginning of
tenth grade, I finally had a chance to have a normal
high school experience just like any other boy. The
School Board took that away from me, and I will never
get it back.
Additional Medical and Legal Steps in My
Gender Transition
59.
During tenth, eleventh, and twelfth grade, I
also continued to take medical and legal steps as part
of my gender transition.
60.
In December 2014, shortly after the Board’s
policy went into effect, I began hormone therapy,
14a

which has deepened my voice, increased my growth of
facial hair, and given me a more masculine
appearance.
61.
In June 2015—at the end of tenth grade—
the Virginia Department of Motor Vehicles issued a
state I.D. card for me identifying me as male with an
“M” gender marker. A copy of the DMV letter
confirming my gender marker change is identified as
Exhibit B.
62.
In June 2016—at the end of eleventh
grade—I underwent chest-reconstruction surgery, as
part of my treatment for gender dysphoria.
63.
On September 9, 2016—at the beginning of
twelfth grade—the Gloucester County Circuit Court
issued an order declaring that my sex is male and
directed the Virginia Department of Health to issue
me a birth certificate listing my sex as male. A copy of
that court order is attached as Exhibit C.
64.
On October 27, 2016, the Virginia
Department of Health issued a birth certificate listing
my sex as male. A copy of that birth certificate is
attached as Exhibit D.
65.
Despite all of this, I was still not allowed to
use the same restrooms as other boys at Gloucester
High School.
66.
After I received my updated birth certificate,
my mother and I provided the school with a copy and
asked them to update my school records to match the
gender marker on my birth certificate. I was planning
to apply to colleges, and I wanted my school transcript
to be updated so that it identified me as “male” instead
of “female.”
67.

I went to the guidance office several times to
15a

ask when my school records would be updated, but I
never received an answer. Finally, someone from the
guidance office told me that they had been instructed
to tell me: “We have received your request. Thank
you.”
68.
As a result of Gloucester County Public
Schools’ refusal to update my school records, my
official school transcript still identifies my sex as
“female” even though all of my other identification
documents identify me as male. A copy of my
transcript is attached as Exhibit E.
69.
I am currently attending community college
at Berkley City College, but I plan to eventually
transfer to a four-year school. Every time I have to
provide a copy of my transcript to a new school or
employer, I will have to show them a document that
negates my male identity and marks me as different
from other boys. I am still tethered to high school by
this document, and I think it is unfair that a high
school that put me through so much is able to wield
that much negative influence over my adult life.
70.
I was shocked and angry when I learned the
School Board recently testified that their policy turned
on students’ current birth certificate. If the Board
really is interpreting its policy this way, then it makes
what they did to me even worse. Under what they now
say the policy means, I should have been allowed to
use the same restrooms as other boys starting in late
October 2016 when I provided them with my new birth
certificate. I could have had a normal high school
experience for most of my senior year. I jumped
through hoop after hoop, and I did everything I was
supposed to do even under the Board’s discriminatory
policy. If the Board really thought something was

16a

wrong with my documents, why didn’t they just tell
me what the problem was so I could address it? It feels
like they were playing games with my life, and I do
not understand how a group of adults could treat a
high school student that way.
Pursuant to 28 U.S.C. § 1746, I declare under penalty
of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on: 3/19/19

17a

/s/ Gavin Grimm

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Newport News Division
GAVIN GRIMM,
Plaintiff,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant.
Civil No. 4:15-cv-00054
DECLARATION OF DEIRDRE GRIMM
1.
I am the mother of Plaintiff Gavin Grimm in
the above-captioned action. I have actual knowledge
of the matters stated in this declaration.
2.

My name is Deirdre Anne Grimm.

3.

I live in Gloucester County, Virginia.

4.
I have been a Licensed Practical Nurse
(“LPN”) for 30 years. I currently work for the
American Addiction Treatment Center and Sentara
Wound Care Center.
5.
I understood for most of Gavin’s early life
that he struggled with something, but he wasn’t able
to put a name to it until later.
6.
As a child Gavin was anxious. He never felt
fully comfortable around people, and he had trouble
being around big crowds at parties and events. Gavin’s
demeanor changed noticeably when he transitioned
and started to live authentically as a boy. He is now
confident and comfortable with himself. He is not that
shy, anxious kid anymore.
18a

7.
In April 2014, Gavin came out to me as
transgender. I inadvertently opened the door by
telling him about a conversation that I had recently
had with another adult about their transgender child.
Gavin seized the moment, and said he had to tell me
something. He was very nervous when he came out to
me as transgender.
8.
Gavin’s coming out did not change a thing
about my love and support. I told him it didn’t change
anything about how I felt about him. But I know it was
a big deal for him because he wasn’t sure what to
expect.
9.
I was committed to supporting Gavin from
day one. The first thing I did was spend three days
and nights reading about transgender children and
how I could support Gavin. My husband took a longer
time to deal with it and really understand what Gavin
was going through. He tried very hard to show support
from the beginning, and his support for Gavin really
transformed over several months.
10. At Gavin’s request, I took him to see a
psychologist who specialized in treating transgender
youth. She diagnosed him with gender dysphoria and
gave us a treatment documentation letter advising
that he should be treated as a boy in all respects.
11.
Before Gavin began tenth grade in the fall of
2014, Gavin and I met with the school guidance
counselor, Ms. Tiffany Durr, about Gavin’s transition.
I presented her with Gavin’s legal name change order
and his treatment documentation letter. Ms. Durr was
very supportive of Gavin and was fully “on board” with
using Gavin’s correct name and pronouns.
12.
Gavin used the nurse’s bathroom for some
time that fall, but he expressed concerns to me. Gavin
19a

said that it took him a long time to walk across the
school to the nurse’s bathroom from his classes in Dhall. He also said he felt singled out and embarrassed,
and that other students made comments pointing out
that he was using a separate restroom, saying things
like “what took you so long?” Gavin and I met with Ms.
Durr and Principal Nate Collins and discussed
Gavin’s concerns. Mr. Collins was very open to
allowing Gavin to use the boys’ restroom. We all had
a very reassuring conversation about Gavin’s safety,
and I felt fully supported by Mr. Collins.
13.
Gavin, Mr. Collins, and I all set a date on
which Gavin would begin using the boys’ restrooms at
school. Gavin began using the boys’ restrooms in
October 2014.
14.
On November 10, 2014, a friend of mine sent
me a Facebook message, in which someone was urging
people to go the Gloucester County School Board
meeting the following evening, on November 11th.
The message said that the School Board would be
discussing and voting on Gavin using the boys’
restrooms.
15.
I don’t remember if the message named
Gavin, but I remember it was clear they were talking
about my child and whether he should be allowed in
the boys’ restroom. The post was clearly rallying
people to go to the meeting and oppose a transgender
student using the restrooms. Some of the comments
were really terrible.
16.
No one on the School Board ever contacted
me or Gavin about the meeting. The first time I
became aware of any problem was from the Facebook
message I received.

20a

17.
After seeing the Facebook post, I started
making a booklet of educational materials on what it
means to be transgender. I included medical
literature, information on suicide rates for
transgender children, and information pulled from
transgender equality websites. I made one booklet for
every School Board member and took those booklets
to the meeting and gave them to the members.
18.
When Gavin and I spoke about it, we never
considered not going to the School Board meeting.
They were going to be talking about Gavin, my child,
and I had no doubt that I had to be there. Gavin was
also set on going. He has always been the kind of kid
who will fight for himself if people are going to be
making decisions about his life.
19.
Prior to the meeting I knew nothing about
the School Board’s proposal. All I knew was that they
were discussing my son and whether or not he should
be allowed to use the boys’ restroom. I was not aware
of any plans to restrict boys’ and girls’ restrooms by
“biological sex,” or to create a third restroom option for
“unisex” usage.
20.
I didn’t really know what to expect at the
School Board meeting, but I really didn’t expect it to
be as brutal as it was. Gavin and I sat and listened to
adult members of our community stand up and insult
Gavin. I remember them calling my child an “it” and
a “freak,” and I remember thinking I worked in this
community for 17 years as a nurse. I have been at
many of these people's houses taking care of their
moms and dads. I loved my community, and I
remember thinking, how could people be calling my
kid these names?

21a

21.
I remember one adult after another getting
up there and talking about things that I don’t even
think were appropriate for them to be talking about.
These people were talking about his private body
parts. I just remember how appalled I felt for Gavin
and how scared it made me that he wouldn't be able to
struggle and live through all of this. Based on what I
had read about transgender youth and the suicide
risks, I was already scared for Gavin’s life. Then we
went to this horror show of a school board meeting,
and it just made me even more fearful of the impact
on him of his community not accepting him.
22.
When the School Board said it would be
installing separate single-stall restrooms Gavin and I
talked about the new restrooms, and he was very
upset about it. He didn’t want to use them because he
is not “unisex;” he is a boy. I remember him saying
they may as well put a flashing light that says “Gavin”
above the new restrooms, because everyone knew they
were created for him, and only he was forced to use
them.
23.
The School Board voted on December 9,
2014, to issue a policy preventing Gavin from using
the boys’ restrooms. Gavin was seriously distressed by
this policy. He felt so validated when he was allowed
to use the boys’ bathroom at school, just like a normal
boy. He had never felt like a normal boy up to that
point because he hadn’t been validated that way. They
gave him that validation, and then they took it away.
24.
From that point, high school was especially
difficult for Gavin. One night at the beginning of his
year in eleventh grade, I found him sobbing on the
bathroom floor, and he begged me to take him
somewhere because he was having thoughts of

22a

suicide. So I took him to Virginia Commonwealth
University Medical Center to get him help. They put
him on the boys’ ward, which was very validating to
him. He was treated like any other boy.
25.
One time, Gavin called me and asked me to
pick him up from a football game because there was
no bathroom for him to use after school. There was no
single-user restroom at the football field, and he
wasn’t allowed to use the men’s room. Gavin told me
he felt like his bladder was about to burst. It was like
a gut punch to me, as a mom. If you don’t have an issue
accessing bathrooms, you don’t think about how hard
it is for somebody who does. But Gavin lived that
reality every day in high school.
26.
Gavin had frequent urinary tract infections
during his high school years. He would hold his urine
during the day and have to use the restroom as soon
as he got home. We kept boxes of AZO, an over-thecounter medication for urinary tract infections,
always stocked at home to in order to give him some
relief from the pain.
27.
Not only has the School Board ruined my
son’s high school years, but now they’re affecting his
college years too. Gavin wanted to have the gender
marker on his school records changed to “male” before
he applied to college. When Gavin was issued an
updated birth certificate listing his gender as male, it
was a celebration for us because we thought he could
finally get his school records changed too. I personally
walked an official copy of that document into the
Gloucester High School guidance department and
handed it to the office secretary. They gave me the
impression it would be no problem for them to update
Gavin’s records, but when Gavin started requesting

23a

his transcript to apply to colleges, he realized they had
refused to list his gender as male.
28.
When I learned the Board is now saying
Gavin could have used the boys’ restroom his senior
year if they thought he had presented a valid birth
certificate, I was furious. In all these years, no one
from the High School or the School Board ever said a
word to me or Gavin indicating there was any problem
with his birth certificate. For them to come back and
say that now feels like a slap in the face. It makes me
so upset that they have treated my kid this way.
29.
Gavin is a strong kid, but this whole
experience has taken a big toll on him and on our
entire family. As a parent, you want to protect your
child and keep him from harm. It broke my heart to
watch him suffer and not be able to do anything to stop
it. And he was being hurt by his own School Board,
which should have been protecting him.
Pursuant to 28 U.S.C. § 1746, I declare under penalty
of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on: 3/21/19

/s/ Deirdre Grimm

24a

